                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A07110061                                                                    Page 1 of 1



                Our inquiry determined that an a.lIegatio~ of plagiarism in an NSF proposal} submitted by
        the PI (subject)2 appeared to be substantive. The Institution3 concluded that the PI plagiarized
        materials. The Institution concluded the subject's actions were research misconduct. We
        concurred with the Institution and recommended NSF make a finding of research misconduct.

                 This memo, the attached Report ofInvestigation~ and the Deputy Director's decision
        letter constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
                                                                     ·l 


CONFIDENTL,\L                                                                            CONFIDENTIAL




       National Science Foundation 

        Office of Inspector General 





                       Confidential 

                  Report of Investigation 

                 Case Number A07110061 

                    December 23, 2009 . 

                                                               "',




" This' ConfidenclaiRep6it'oflnves    the prbP~~tY,()fthe:NSFQ~C!and rilay be UJ."....v",'"''-'
                                  tlgation is
  ,NSFOrily by OIGiirider theFreedomoHnform~i:ipti and Privacy'A,~ts, 5 U.S.c. §§5

                                                                                   NSF OlG Form 22b (11/06)
                                                               ,


 CONFIDENTIAL                                                                       CONFIDENTIAL


                                        Executive Summary

Allegations:    Plagiarism

 OIG Inquiry:

           • 	 A PI (subject) and co-PI submitted an NSF Proposal containing text copied from
               multiple source documents. The Proposal was withdrawn prior to merit review.
           • 	 PI and co,..PI responSes suggested the PI was responsible for the text. We referred
               an investigation to the Institution.

Institution's Investigation:

           • 	 The Institution determined that the PI was solely responsible for the copied text.
           • 	 The PI, represented by counsel, refused to meet with the Investigation Committee.
           • 	 The Institution concluded the subject committed plagiarism, as shown by the
               preponderance of the evidence, and her actions constituted a significant departure
               from the accepted practice-of her research community.
           • 	 In the absence of the subject's participation, the Committee did not determine
               intent, although it stated it was unable to ascertain how the subject could have
               copied from source documents without knowing it.
           • . The Institution invoked the following actions against the subject:

                1. 	 Prohibited from submitting proposals, papers 'for publication, or papers for,
                     presentations for one year unless they are reviewed and approved by specified
                     administrators;                                                     ,
                2. 	 Ineligible for a merit salary increase for one year;
                3. 	 Required to take a specified two-day ethics class;
                4. 	 Banned from serving as a Title III Internal Evaluator or being involved with
                     any Title III activity for one year; and
r	
                5. Prohibited from participating on a specified summer program for two
                   , summers.

OIG Assessment:

       We concur with the Institution that the subject plagiarized text into one NSF Proposal.
                                         j


               . The Act: The subject plagiarized about 30 lines of text into the NSF Proposal·
                 from one paper, one funded NSF Proposal, and one website.

                Intent: The subject acted knowingly.
                                                           \

                Standard of Proof: The preponderance ,of the evidence supported the conclusion
                thatthe subject plagiarized material into her NSF Proposal.

                Significant Departure: The subject's plagiarism represents a significant departure


                                                 1
CONFIDENTL'iL
                                                                             CONFIDENTL'iL


             from community standards.

OIG Recommendations:'

         • 	 Send a letter of reprimand t<;> the subject informing her that NSF has made a
             finding of research misconduct;

         • 	 Require the subject to certify that proposals she submits to NSF do not contain
             plagiarized, falsified, or fabricated material for 1 year; and

         • 	 Provide documentation· that the subject completed the two-day ethics course
             mandated by her Institution.

         • - Bar the subject from serving as a merit reviewer for 1 year.




                                              2

 CONFID&'\JTL'iL
                                                                                                  CONFIDENTL'iL


                                                 ~IG's      Inquiry

 We.determin~d an NSF Proposal submitted by the PI and co-PI2 contained about 30 lines of
                                        1

 copIed, unattnbuted text from three source documents, including a previously funded NSF
 Proposa~ that was availabl~ online. We wrote separately to the PI and co-PI 3 requesting their
 perspectIves on the allegatIOn.                                             .
                         4
The co-PI :esponded and. claimed he did not write the text in question. He also provided
corroboratI~g documentatIOn to support his claim. Further, he explained that he had discussed
our ,letter WIth the PI who indicated she was going to inform us that she was responsible for the
copIed text.

The PI's ~ttorney responded on her behalf,s and asserted that because the Proposal had been
withdrawn without merit review, 6 it should be removed from the purview of a research
misconduct inquiry.? Her attorney contacted our office for clarification on the governing
            8
regulations and subsequently responded with a second letter. In his second letter, he stated that
he found nothing in 45 C.F.R. Section 689 that showed the NSF or the OIG had the authority to
look at a proposal that was declined or withdrawn without merit review.

The PI's attorney also asserted that his client was familiar with what constitutes misconduct with
proposals and would never intentionally violate these procedures, and "she does acknowledge
that the information was not cited, but believing that the proposal was mute, she felt she had
taken the a~propriate steps by not reSUbmitting the declined proposal without merit review at a
later date."                                                                            .

We disagree vehemently with her counsel's position. Since the PI submitted a proposal to NSF,
it is covered by NSF's definition !Jnder which research misconduct "means fabrication,
falsification, or plagiarism in proposing [emphasis added] or performing research funded by NSF
••. ,,10 The. subject and her attorney seem to be interpreting the merit review process, or lack
there of, as definitive regarding the authority of an NSF/OIG inquiry or investigation. Their

J NSF Proposal
submitted by

; The prop~sal  was initially submitted for review on                   and returned to
 on                  , for corrections in        and personal biographies. The corrections were made and the
 proposal was resent to NSF on
   Tab 1 with annotated copy of NSF Proposal and source documents.
4 Tab 2, The co-prs response without attachments. Attachments available upon request.
5 Tab 2, First and Second Responses from the subject.
6 The subject's attorney argues about the disposition of the subject's NSF proposal after submission. Such
argument ignores the fact that the proposal was submitted and that it contained unattributed text.
7 Specifically, the attorney stated that he "reviewed documentation regarding the NSF's processing and reviewing
of proposals, and found that once the proposal is withdrawn without merit review, it is returned to the PI and
 becomes a dead issue, unless, however, the PI desires to pursue the matter further." Tab 2, Attorney's First
Response, page 1. Declined and withdrawn proposals have long been available to NSF GIG for investigative
purposes, including research misconduct inquiries and investigations.
8 Tab 2, OIG's Contact of Attorney's Office.on 12-27-07.
9 Tab 2, Second Response from the subject.
 10 45 CFR § 689.1 (a).




                                                        3
CONFIDENTIAL         ­                                                                            CONFIDENTIAL


interpretation mistakenly interjects the notion that merit review has some bearing on whether
research misconduct occurred, when in fact the regulation" is silent on the matter of merit review.

Based upon the evidence, we referred the investigation to the subject's Institution.ll

                                         Institution's Investigation

The Institution, following its policy and procedures, initiated an in~uiry and, subsequently, an
              12
investigation. As stated in the Institution' sInvestigation Report,1 the Investigation Committe.e
(the Committee) exonerated the co-PI.

As a part of its deliberations, the Committee found sections in the proposal that appeared to be
paraphrased and might have been explained as coincidental. However, it found two ·'significant
blocks of text" 14 that appeared to have been taken verbatim from one of the source documents . .
In addition, the Committee's review of the Inquiry Board's interview transcripts revealed that the
subject stated she was responsible for the material from one of two significant blocks of text.15
The Committee noted that this source document was not included in the proposal's Reference
  · t . 16
L IS                                                                      ,



The Committee also determined that the subject had signed the institution's «Transmittal Form
for Sponsored Program Proposal Approval" prior to the proposal's submission. The Form states:
«I certify the proposal submitted is an original application that is free ofplagiarism.,,17

The Committee wanted to interview the subject. However, the subject chose not to appear before
the Committee. Based on the evidence before them, the Committee determined that the PI was
responsible for the copied text, and concluded that she had

        represented another person's work as her own throughout the document. Further,
        the [Committee] concluded [the subject] had signed a proposal transmittal form
        acknowledging the proposal was free of plagiarism. Thus, she was found guilty
        of plagiarism.[18]
                                                            .                                                .
The Committee --found that a J'reponderance of the evidence proves research misconduct was
committed by [the subject]."l Further, the Committee determined that the plagiarism committed
by the subject "constituted a significant departure from accepted practices of the research
community.,,20 It stated                      .


II                             (the Institution).
12 Tab 4: Cover Letter to DIG with Table of Contents listing all attachments.
13 Tab 4: Final Investigation Report (Atch XVIII) with relevant additional attachments. Please request any
additional infonnation or attachments not included herein and listed in the Table of Contents if needed.
14 Tab 4, Atch XVIII, Final Investigation Report, page 3.
15 Ibid.

16 Tab 4, Atch XVIII, Final Investigation Report, page 3.
17 Tab 4, Atch XVIII, Final Investigation Report, pages 3. Fonn available with Attachments on request.
18 Tab 4, Cover Letter to DIG, page 1.
19 Ibid, page 2.
20 Ibid.




                                                        4
CONFIDENTVlL                                                                                        CONFIDENTVlL




     Without the benefit ofa fonnal interview, the [Committee] could not detennine if the
     research misconduct was committed intentionally; or knowingly, or recklessly. [21]

However, the Committee indicated it was

     unable to ascertain how [the subject] could have cited from source documents without
     knowing it. During the inquiry phase of the work, [thee sUbject] claimed that some
     statement found in the proposal could not be stated in an alterative way, that is, that
     certain expressions are common in the literature. [22]

The Committee provided its report to the adjudicator without recommending specific actions?3' \
The adjudicator notified the subject that he was imposing the following actions. The subject
was:

      1. 	 Prohibited from submitting proposals, papers for publication, or papers for
           presentations for one year unless they were reviewed and approved by specified
           administrators; ,
      2. 	 Ineligible for a merit salary increase for one year;
      3. 	 Required to take a specified two-day ethics class;
      4. 	 Barred from serving as a Title IIf4 Internal Evaluator or being involved with any Title
           III activity for one year; and
      5. 	 Prohibited from participating on a specified summer program for two summers. 25

                                               OIG's Assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

         (l) There be a significant departure from accepted practices of the relevant
         research community; and (2) The research misconduct be committed
         intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
         preponderance of the evidence. [26]        .'                       .


We evaluated the Committee's report27 as part of our)nvestigation. We informed the subject's
attorney that we had initiated our investigation and solicited any comments either might have
concerning the Institution's report. 28 The attorney responded for the subject. 29    ,



21  Ibid. 

22 Tab 4, Cover Letter to DIG, page 2. 

23 Tab 5, Policy and Procedures: The investigation portion of this document consists of one paragraph and does not 

specify the Committee recommend actions. 

2 Department of Education, Title III funds. The Title III program helps eligible Institutions of Higher Education to 

become self-sufficient and expand their capacity to serve low-income students by providing funds to improve and 

strengthen the academic quality, institutional management, and fiscal stability of eligible institutions. 

25 Tab 4, Atch XXIII, 

 26
    45 CFR § 689.2(c). 

27 Tab 4, Atch XVIII, Final Investigation Report. 

28 Tab 6. 	                          .


                                                          5
('
                                                                          ,

                                                                                         CONFIDENTIAL




     Our review of the Institution's report indicates that it was timely and thorough in its assessment
     of the allegation. We accept its findings as reasonable and accurate . .

                                                              The Act

     Our investigation determined that approximately 30 unique lines of text in the Proposal were
     copied from 3 source documents. The total amount of plagiarized material is not large, but, as the
     Institution's committre determined, is significant. Also significant is that a large block of the
     plagiarized text comes from a previously fimded NSF proposal that was available online.



     In the absence of the subject's cooperation, the Committee concluded that it would be difficult
     for her to have copied the text and not do it knowingly. The subject's Institution requires an
     overt signed statement concerning plagiarism from each PI at the time he/she submits the
     proposal. The subject signed the required statement attesting that the Proposal she was seeking to
     submit did not contain plagiarized text. 30 We thus conclude that the subject acted knowingly. '
     Furthermore, NSF proposal guidelines clearly state that authors of proposals are expected to
     adhere to appropriate scholarship when submitting proposals. 31

                                                       Standard ofProof

     The investigation Committee concluded that the preponderance of the evidence indicates that the
     subject copied these materials into her proposal without appropriately distinguishing the text from
     her own work. We concur with the Committee's assessment.

     The preponderance of evidence supports the conclusion that the subject acted knowingly when she
     copied these materials. We conclude the subjectcommitted plagiarism and, therefore, committed
     research misconduct.

                                                     Subject's Response

     We email ed-the subject asking to whom we should send a copy ofthe draft report. Her response
     directed usio send a.co~1 only to her attorney.32 We co~tacted the attorney and fo.rwarded the
     letter and report to hIm. The attorney's only response mcluded a copy ofthe subject's
     certification of completion of the ethics course required by the Institution. We have made no
     changes t6 the report.




     29 Tab 7. 

     30 Tab 4, XVIII, Final Investigation Report, page 3. 

     31 Grant Proposal Guide, section I.D.3. 

     32 Tab 9. 

     33 Tab 10. 





                                                               6
•.'   f'




           CONFIDENTIAL                                                                           CONFIDENTIAL




                                                 OIG's Recommended Disposition

           In deciding what actions are appropriate when making a,finding of research misconduct, NSF must
           consider several factors. These factors include how serious the misconduct was; the degree of
           intent, whether it was an isolated event or part of a pattern; its impact on the research record; and
           other relevant circumstances. 34      .                                           . '


                                                             Seriousness

           Plagiarism strikes at the heart of research integrity and is an unacceptable practice within the
           research community. In addition, the Grant Proposal Guide in effect at the time this proposal was
           submitted states

                    NSF expects strict adherence to the rules of proper scholarship and attribution.
                    The responsibility for proper attribution and citation rests with authors of a
                    proposal; all parts of the proposal should be prepared with equal care for this
                    concern. Serious failure to adhere to such standards can result in findings of
                    research misconduct. NSF policies and rules on misconduct in science and
                    engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as.
                    in 45 CFR Part 689 .35

           The plagiarize text, although modest, represents a serious failure on the part of the subject whose
           experience over the past 20 years alone, should have prevented this from happening.

                                                           Degree ofIntent

           The subject copied 30 lines of text from 3 source documents into her NSF proposal. This is a
           modest amount and although serious, it is not egregiously so. Given the subject's experience
           with over ten publications injournals, a teaching certificate, four years as a former university
           s~pervisor for secondary science student teachers, an editor of a laboratory manual, and a teacher
           for over 20 years at the Institution/ 6 we find it difficult t6 accept that the subject did not fully .
           understand appropriate citation practices. Therefore, we conclude her actions (were distinctly
           knowing.

                                                              Pattern

           There is no evidence of a pattern.

                                                    Impact on the research record

           There is no evidence of any impact on the ,research record as a result of the plagiarism in the
           proposal submitted to NSF.

           34 45 CFR § 689.3(b). 

           35 NSF Grant Proposal Guide, section I.D.3. 

           36 Tab 8: Biosketch from _    Proposal. 

                        I




                                                                 7
CONFIDENTIAL                                                                                       CONFIDENTIAL




                                               Recommendations

Based on the evidence, OIG recommends that NSF:

             • 	 Send a letter of reprimand to the subject informing her that NSF has made a·
                 finding of research misconduct;37                .                , .

             • 	 Require the subject to certify38 that proposals she submits to NSF do not contain
                 plagiarized, falsified, or fabricated material for 1 year;39 and

             • 	 Provide documentation40 that the subject completed the two-day ethics course
                 mandated by her Institution. 41

             • 	 Bar the subject from serving as a merit reviewer for 1 year. 42




37 A letter of reprimand is a Group I action (45 C.F.R. § 689.3(a)(l)(i». 

38 Certifications should be submitted directly to the Associate Inspector General,for Investigations at NSF/OIG. 

39 Certification by an individual is equivalent to a Group I action 45 C.F.R. § 689.3(a). 

40 Documentation should be submitted directly to the Associate Inspector General for Investigations at NSF/OIG. 

41 Certification by an individual is equivalent to a Group I action 45 C.F.R. § 689.3(a). ' 

42 Prohibition from serving as a reviewer is a Group III action (45 C.F.R. § 689.3(a)(3). 





                                                         8
                                                      NATIONAL SCIENCE FOUNDATION
                                                           4201 WILSON BOULEVARD
                                                          ARLINGTON, VIRGINIA 22230



                                                               APR     ~.   3 2010

                          OFFICE OF THE 

                         DEPUTY DIRECTOR 





........-..-..   ----------:::--:-==-:---:-:--=-=~=~~~==           


                    CERTIFIED MAIL --RETURN RECEIPt-REQUESTED




                                                               (



                            Re:
                                     Notice ofResearch Misconduct Determinatioll

                    D
                           In 2006, your client, 	                         brllitted a proposal to the National
                    Science Foundation ("NSF") '-'LU.H"_U,~
                    _ ' As documented in the attached Investigative Repo11 prepared by NSF's
                    Inspector General ("OIG"), this proposal contained plagiaIized text.

                    Research Misconduct and Proposed Sanctions
                            Under NSF~s regulations, "research misconduct" is defined as "fabrication, falsification,
                    or plagiarism in proposing or perfonning research ftmded by NSF ..." 45 CFR § 689.1(a). NSF
                    defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
                    without giving appropriate credit." 45 CPR § 689.l(a)(3). A finding of research misconduct
                    requires that:

                            (1) 	There be a significant departure from accepted practices of the releva~t research
                                 community; and                                              .
                            (2) 	 The research misconduct be committed intentionally, or knowingly, or recklessly; and
                            (3) The allegation be proven by a preponderance of evidence.

                    45 CFR § 689.2(c).

                                               osal contained verbatim and paraphrased text, copied from three source
                    doclUl1ents. By submitting proposals to NSF that copied the ideas or words of another without
                    adequate attribution, as descIibed in the OIG Investigative Report,~isrepresented
                    someone else's work as her own. Her conduct unquestionably constitutes plagiaIism. I therefore
                    conclude t h a t _ actions meet the definition of "research misconduct" set forth in
                    NSF's r e g u l a t i o n s . '                                          ,
                                                                           \




                                                                                                         Page 2
                   Pursuant to NSF regulations, the Foundation must also detenninewhether to make a
           finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
            reviewing~tive Report) NSF has detelmined that, based ~n a preponderance of the ­
           evidence, _ _ _plagiarism was committed knowingly and constituted a significant
           departure from acceptedpracticesofthe relevant research community. I am, therefore, issuing a
           finding of research misconduct    .

                     NSF's regulations establish three categories of actions (Group I, II, and Dl) that can be
             taken in response to a finding ofmisconduct. 45 CFR § 689.3(a). Group I actions include
    ---------issuing-a-letterofrepl imand, conditioning-awards-on-prior-approval ofpat tiemar-actlvities--fl'om-_- - - - - - ­
            NSF; requiring that an institution or individual obtain special prior approval ofparticular
            activities fl:om NSF; and requiring that an institutional representative certifY as to the accuracy of
            rep011s or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
            Group II actions include award suspension or restrictions on designated activities or
            expenditures; requiring special reviews of requests for funding; and requiring cOlTection to the
            research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
            awards; prohibitions on participatIon as NSF reviewers, advisors or consultants; and debanllent
            or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

                 In determining the severity of the sanction to impose for research misconduct, I have
          considered the seriousness of the misconduct, and our determination tbat it was committed
          knowingly. I have also considered tbe fact                                 was an isolated
          incident, aqd had no impact on the research record, as well as other relevant circumstances. 45
          CFR § 689.3(b).

                 After assessing tile relevant facts and circumstances ofthis case, I am taking the
/
          following actions a g a i n s t _ _                 _ -                          ­

                  (I) Until Aprill, 201l,_~ust provide certifications to the OIG that any __
                      proposal she submits to NSF as a PI or co~PI does not contain plagiarized, falsified, or
                      fabricated material;

                  (2)_l1ust~eliif,y to the OIG that she has completed the two-day ethics training
                      course mandated by her University; and

                  (3) _ i s prohibited from serving as a melit reviewer for NSF until Aplil 1, 2011.

                  The certifications should be submitted in writing to OIG, Associate Inspector General for
          Investigations, 4201 Wilson Boulevard) Arlington, Virginia 22230.

          Procedures Goveming Appeals
                 Under NSF's regulations._has 30 days after receipt of this letter to submit an
          appeal oftrus decision, in writing, to the Director of the FOtmdation. 45 CFR § 689.10(a). Any



                                                                                                                     r
                                                                 \




                                                                                          Page 3
appeal should be addressed to the Director at the National Science Foundation, 4201 Wilson
Boulevard. ArHngton, Virginia 22230. Ifwe do not receive her appeal within the 30-day period,
tlris decision will become final.                       .

                         infonnation, we are attaching a copy of the applicable regulations. If
you have any questions about the foregoing, please call               Assistant General Counsel,
at (703) 292-8060. '   .


           ----------------------------------------~-----------------------~----

                                                    Sincerely,




                                                   CoraB. Marrett
                                                   Acting Deputy Director




Enclosures
- Investigative Rep01t
- 45 C.F.R. Part 689




                                                                        [
